      Monthly Update Report Data (sheet 1 of 2) Version 1.0
                  Reporting OIG: Department of State

            Month Ending Date:     04/30/2009
               Submitter Name: Cynthia Saboe

         Submitter Contact Info: 202‐663‐0367, 
                                 saboec@state.gov
                                                Recovery Act Funds Used on Recovery Act Activity
    Program Source/ Treasury       Program Source/Treasury       Total Funding           Total Obligations        Total Gross Outlays
     Account Symbol: Agency        Account Symbol: Account 
No.           Code                          Code
                              19                       0530                $2,000,000                        $0                         $0


                              19                       0530                $2,000,000                        $0                         $0



                                              Non-Recovery Act Funds Used on Recovery Act Activity
      Program Source/ Trea
         g           /     sury 
                              y    Program Source/
                                      g          /Treasury 
                                                         y       Total Fundingg          Total Obligations
                                                                                                   g              Total Gross Outlays
                                                                                                                                   y
       Account Symbol: Agency      Account Symbol: Account 
                Code                        Code
  1
  2
  3
  4
  5
  6
  7
  8
  9
 10
      Monthly Update Report Data (sheet 2 of 2)
                                                     Reporting OIG:
                                                                      Department of State
                                               Month Ending Date:
                                                                                                                          3/31/2009
                                      Recovery Act Funds Used on Recovery Act Activity

No.      Short bulleted list of the major actions taken to date             Short bulleted list of the major planned actions

  1   Coordination meeting with IG community on ARRA funding ov Complete planning consultations with Department
  2   Coordination meeting between GAO and IG community on ARSubmit draft oversight plan to OMB
  3   Meetings/discussion with Department (A Bureau) on oversight Submit final oversight plan to OMB and Congress
  4   Discussions with GSA/OIG on tracking/oversight of constructioInitiate planned reviews/activities
  5   Provided background information, best practices, on grant conCoordinate with Department/GSA/IG Community re: tracking of
  6   Responded to request from Rep. Daniel Issa on OIG oversigh Coordinate with Department/GSA/IG Community re:funding for
  7   Submitted obligation phasing plan
  8   Initiated inspection of ARRA activities by Office of Real Prope
  9   Met with IBWC officials on ARRA-funded projects and oversig
 10   Provided background information, best practices, investigative
 11   Coordinated w/RATB on development of IG planning and repo
 12
 13
 14
 15
 16
 17
 18
 19
 20
 21




                                    Non-Recovery
                                    Non Recovery Act Funds Used on Recovery Act Activity

No.      Short bulleted list of the major actions taken to date

  1 Reviewed Recovery Act tracking software/resources                 Update Hotline website and provide links to Department, IBWC
  2                                                                   Update Hotline posters and distribute to Department, IBWC sta
  3                                                                   Identify more cost-effective means for tracking Recover Act fun
  4
  5
  6
  7
  8
  9
 10
 11
 12
 13
 14




                           Office of Inspector General Activities and Accomplishments
      Audits/Inspections/Evaluations/Reviews Initiated            1 Audits/Inspections/Evaluations/Reviews Issued
                               Investigations Initiated                                      Investigations Closed
        Complaints of Whistleblower Reprisal Initiated               Complaints of Whistleblower Reprisal Closed
                       Guidance Statement for Monthly Update Report to OMB

This spreadsheet provides the format to be used by the Office of Inspectors General in reporting
monthly updates to OMB on funding activity relating to the Recovery Act oversight activities. The first
worksheet (Monthly Update) is to report both Recovery Act funding and non-Recovery Act funding
activity directly relating to Recovery Act operations. Information reported on this worksheet is overall
summary level data and should be reported on a cumulative basis.

The second worksheet (Major Actions) reflects Recovery Act major actions, both taken to date and
planned by the OIG. This worksheet is broken out into three major sections. Two sections are for
reporting the Recovery Act major actions -- Recovery Act funding and non-Recovery Act funding.
Examples of major actions could include items such as contracting, hiring, specified audits,
developmental/educational programs, purchases, etc. The third section provides for the reporting of
statistical accomplishments relating to Recovery Act work.
